National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001




                                           September 27, 2012

The Honorable Peggy E. Gustafson
Inspector General
U.S. Small Business Administration
409 3rd Street, SW
Washington, D.C. 20416

Dear Inspector General Gustafson:

The NASA Office of Inspector General (OIG) has reviewed the internal quality control system
for the U.S. Small Business Administration (SBA) OIG Auditing Division in effect for the period
ending March 31, 2012. We used the standards described in the Government Auditing Standards
(GAS) July 2007 Revision, which states that the SBA OIG is responsible for designing and
complying with a system of quality control to provide reasonable assurance that it is performing
and reporting in conformity with applicable professional standards in all material respects.

We also followed the guidelines established by the Council of the Inspectors General on Integrity
and Efficiency (CIGIE) during our review. In accordance with the CIGIE guidelines, we
interviewed SBA OIG personnel to gain an understanding of the SBA OIG audit organization
and its system of quality control and to assess risks in its audit functions. Based on our
assessments, we selected engagements and administrative files to test for compliance with SBA
OIG’s system of quality control and conformity with professional audit standards. (See the
enclosure for a description of our scope and methodology, including the SBA OIG location
visited and the engagements reviewed.) The engagements selected represented a reasonable
cross-section of SBA OIG’s audit organization, with emphasis on higher-risk projects. Before
concluding the review, we reassessed the adequacy of our scope and subsequently we met with
SBA OIG management to discuss the review results. We believe the procedures performed
provide a reasonable basis for our opinion.

In our opinion, we found the system of quality control for SBA OIG’s Auditing Division in
effect for the period ended March 31, 2012, to be suitably designed and that the SBA OIG
Auditing Division has sufficiently complied with this system so as to provide the organization
with reasonable assurance that it is performing and reporting in conformity with applicable
professional standards in all material respects. Therefore, the SBA OIG has received a peer
review rating of PASS.

As is customary, we have issued a letter dated September 27, 2012, that sets forth findings that
were not considered to be of sufficient significance to affect our opinion expressed in this report
but that nonetheless requires attention by SBA OIG managers.
                                                                                            2


In addition to reviewing SBA OIG’s system of quality control to ensure adherence with GAS, we
conducted a limited review related to its monitoring of engagements performed by independent
public accountants (IPAs) where the IPA served as the principal auditor in accordance with
CIGIE guidance. While monitoring of engagements performed by IPAs is not an audit and
therefore not subject to GAS requirements, we conducted these limited procedures to determine
whether the SBA OIG had controls in place to ensure that IPAs performed contracted work in
accordance with professional standards. Our objective was not to express an audit opinion and,
accordingly, we do not express such an opinion. However, while performing these limited
procedures we did not note any matters that require SBA OIG’s attention.

We appreciate the cooperation and courtesies extended to our review team during the peer
review. Please contact me if you have any questions.

Sincerely,




Paul K. Martin
Inspector General

Enclosure
                                                                                    Enclosure




                              SCOPE AND METHODOLOGY

Our compliance testing of the SBA OIG’s system of quality control included a review of 5 of 21
audit and attestation GAS reports issued during the period of April 1, 2011, through March 31,
2012, and the September 30, 2011, and March 31, 2012, semiannual reporting periods.

The CIGIE guidance requires that we also review the most recently completed financial
statement audit, which was performed by an IPA firm serving as the principal auditor.
Therefore, we reviewed the SBA OIG monitoring procedures for the fiscal year (FY) 2011
financial statement audit completed during FY 2012. This resulted in six engagements selected
for review. In addition, we reviewed the internal quality control review performed by SBA OIG
during FY 2012.

SBA OIG Office Visited

We performed on-site reviews and assessed the SBA OIG audits completed at the following
location:

U.S. Small Business Administration
Office of Inspector General
Auditing Division
409 3rd Street, SW
Washington, D.C. 20416




                                                                                             1
                                                                                   Enclosure


SBA OIG Reports Reviewed

Report Number               Date              Title
                                   Attestation Audits
12-09                       March 1, 2012     Independent Review of the SBA’s Accounting of
                                              FY 2011 Drug Control Funds and Performance
                                              Summary Report
12-13                       March 30, 2012 Review of the SBA’s Fiscal Year 2011 Cash Gifts
                                  Performance Audits
ROM 11-05                   June 29, 2011     Material Deficiencies Identified in Four 7(A)
                                              Recovery Act Loans Resulted in $3.2 Million of
                                              Questioned Costs
11-16                       July 13, 2011     Banco Popular did not adequately assess Borrower
                                              Repayment Ability when Originating Huntington
                                              Learning Center Franchise Loans
12-08                       February 23,      SBA’s Lender Loan Reporting Process has
                            2012              Systemic Reporting Issues and Data Control
                                              Weaknesses

                               Financial Statement Audit
12-02                       November 14,      Independent Auditor’s Report on the SBA’s FY
                            2011              2011 Financial Statements
                           Internal Quality Assurance Review
                            February 29,      Advisory Memorandum Report on Quality
                            2012              Assurance Reviews of Audit Reports Issued in FY
                                              2011




                                                                                             2
